<html>
<title> - EVALUATING THE NEED FOR GREATER FEDERAL RESOURCES TO ESTABLISH VETERANS COURTS</title>
<body><pre>[Senate Hearing 111-589]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-589

EVALUATING THE NEED FOR GREATER FEDERAL RESOURCES TO ESTABLISH VETERANS 
                                 COURTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2010

                               __________

                          Serial No. J-111-78

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
58-005 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hannibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel













                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Altmire, Hon. Jason, a Representative in Congress from the State 
  of Pennsylvania................................................     2
Danny, Michael, Veteran Participant, Pittsburgh, Pennsylvania....    12
McCaffery, Seamus, Supreme Court Justice, Supreme Court of 
  Pennsylvania, Philadelphia, Pennsylvania.......................     5
Mercer, Al, Executive Director, Veterans Leadership Program of 
  Western Pennsylvania, Pittsburgh, Pennsylvania.................    10
Moreland, Michael E., Network Director of Veterans, Integrated 
  Service Network 4, Veterans Administration, Pittsburgh, 
  Pennsylvania...................................................     9
Murphy, Hon. Tim, a Representative in Congress from the State of 
  Pennsylvania...................................................     3
Zottola, John A., Judge, Criminal Division, Court of Common Pleas 
  of Western Pennsylvania, Pittsburgh, Pennsylvania..............     7

                       SUBMISSIONS FOR THE RECORD

Kerry, Hon. John F., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    25
Mercer, Al, Executive Director, Veterans Leadership Program of 
  Western Pennsylvania, Pittsburgh, Pennsylvania, statement......    26
Moreland, Michael E., Network Director of Veterans, Integrated 
  Service Network 4, Veterans Administration, Pittsburgh, 
  Pennsylvania, statement........................................    59
Zottola, John A., Judge, Criminal Division, Court of Common Pleas 
  of Western Pennsylvania, Pittsburgh, Pennsylvania, statement...    62

 
EVALUATING THE NEED FOR GREATER FEDERAL RESOURCES TO ESTABLISH VETERANS 
                                 COURTS

                              ----------                              


                         MONDAY, MARCH 1, 2010

                               U.S. Senate,
                   Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                     Pittsburgh, PA
    The Committee met, Pursuant to notice, at 10:26 a.m., 
Courtroom 6A, U.S. District Court for the Western District of 
Pennsylvania, Hon. Arlen Specter (Chairman of the Subcommittee) 
presiding.
    Also present: Representative Jason Altmire, Representative 
Tim Murphy.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. Good morning, ladies and gentlemen. The 
Judiciary Committee Subcommittee on Criminal Justice and Drugs 
will now proceed with the hearing on veterans courts.
    I thank my distinguished colleagues, Representative Jason 
Altmire and Representative Tim Murphy, for joining me here 
today, making them ex-officio Senators, ex-officio members of 
the Judiciary Committee's subcommittee. And may the record show 
the unusual circumstance of having a Democrat and a Republican 
in the same field hearing.
    We are taking up today the issue of veterans courts, which 
is an innovation, having started in--and being in operation in 
Allegheny County. It has the imprimatur of the Supreme Court of 
Pennsylvania.
    We have a very distinguished panel. Justice Seamus 
McCaffery is with us today. He's had a very illustrious career. 
In the good old days when I was District Attorney, Officer 
McCaffery was with the Philadelphia Police Department. In--
serving in Philadelphia--more complicated--official positions.
    Judge John Zottola is now the presiding judge on the 
veterans court in Allegheny County, Common Pleas. He has a very 
distinguished record of being Assistant DA and he administered 
the court involving mental illness, and now is handling the 
court for veterans, in recognition of the need, really, to have 
a little specialized treatment when veterans have problems with 
post-traumatic stress syndrome, coming back from Iraq and back 
from Afghanistan, and from prior conflicts.
    Some issues have arisen as to whether veterans are entitled 
to this kind of elite treatment, special treatment. Some raise 
a question about it. My own view is that we owe a great debt to 
the veterans that we haven't begun to repay. I look back to my 
own childhood, when my father, Harry Specter, who was a veteran 
of World War I. The veterans of World War I--veterans had a 
march on Washington--speech--speaking of--since I haven't 
gotten it yet, I'm still waiting for--so we really have a great 
deal to pay our veterans.
    We have with us today Mr. Al Mercer, the executive director 
of the Veterans Leadership Program of Western Pennsylvania, who 
provides housing, employment, and other supportive services to 
veterans. We have with us Mr. Michael Danny, a 46-year-old 
Vietnam, having served in the Marines for more than 4 years. We 
have Michael Moreland, from the Veterans Administration, a very 
distinguished administrator who has sat at this table as a 
witness in the past.
    Now I'll turn to my distinguished colleague, Representative 
Jason Altmire.

STATEMENT OF HON. JASON ALTMIRE, A U.S. REPRESENTATIVE FROM THE 
                     STATE OF PENNSYLVANIA

    Representative Altmire. Thank you, Senator. It's good to 
see you and Representative Murphy. We have a bicameral, 
bipartisan delegation here, and that shows the importance of 
this issue. This is something that Pennsylvania has taken the 
lead in, due to the great work of Justice McCaffery and Judge 
Zottola and the others involved in this. I really appreciate 
you all being here to help tell the story.
    What this field hearing is about is using the lessons that 
we've learned in the short time that we've done this in 
Pennsylvania and apply those across the country and hopefully 
grow this program, because we're talking about veterans who 
have experienced trauma, and acknowledging the unique 
circumstances that go into treating that trauma. When they find 
themselves, due to circumstances, in the criminal justice 
system, we need to find a way to recognize the unique 
circumstances that we're involved in in their treatment through 
veterans' programs.
    We're going to reduce recidivism, which is critically 
important, and we're going to save taxpayers money by 
recognizing the unique factors that go into play. This is 
nothing that we can't do in an effective way, but we have to 
understand that the veterans deserve this. This is a program 
that's critically important, but this is by no means a freebie. 
This is something that veterans are going to be held 
accountable, they're going to be assigned a mentor, and they're 
going to have to go through, in some cases, some treatment. 
This is where accountability is the key here.
    But finding a way to recognize the uniqueness of their 
circumstances, especially the combat-wounded veterans from Iraq 
and Afghanistan, and applying those lessons to that population 
to keep them out of the criminal justice system in the future 
and save taxpayers money. So I'm excited to hear the testimony 
of our witnesses, and look forward to taking those lessons back 
to Washington and thinking about how we can apply those lessons 
and implement these types of programs all around the country.
    Thank you, Senator.
    Senator Specter. Thank you very much, Representative 
Altmire.
    We turn now to our distinguished colleague, Representative 
Tim Murphy.
    Tim.

 STATEMENT OF HON. TIM MURPHY, A U.S. REPRESENTATIVE FROM THE 
                     STATE OF PENNSYLVANIA

    Representative Murphy. Thank you, Senator, for holding this 
hearing, for inviting us, and thank you also for your ongoing 
commitment to our veterans. I appreciate that, especially 
because Pennsylvania is the fourth-highest State in the number 
of veterans in our Nation, and Allegheny County leads the State 
of Pennsylvania in the number of veterans, and we thank them 
all for their service.
    But we have to recognize that the constant stress of battle 
wears on our soldiers and has own effects which last long after 
the bullets stop flying, and that many of our soldiers, 
sailors, airmen, and Marines continue to fight this silent 
battle within from the effects of combat.
    It is a different kind of battle in Iraq and Afghanistan, 
where very often the enemy does not wear the uniform of an 
enemy, but slips back and forth within civilian clothing, hides 
behind mosques and hospitals and schools, and women and 
children, and it leaves our soldiers constantly vigilant out 
there and wary of what may happen.
    Thankfully, advances in medical technology, in armor 
technology, and in medicine have more soldiers surviving 
battlefield injuries and returning home, but the repercussions 
that these men and women have create increased risk for other 
issues, particularly in the mental health area. Nearly 20 
percent of veterans returning from Iraq and Afghanistan, 
according to a Rand study, about 300,000 in all, report 
symptoms of post-traumatic stress disorder or major depression, 
yet few seek the treatment they need. The incidence is higher 
in combat soldiers, but it affects soldiers, sailors, airmen, 
and Marines in all branches.
    As part of a New England Journal of Medicine study, 
interviews with soldiers revealed that only 23 percent--40 
percent seek professional help, most because they fear it will 
hurt their military careers or they have not had a push from 
mentoring from above to change that.
    There have been some changes, however, from the Chairman of 
the Joint Chiefs of Staff, Admiral Mullen on down, and the 
Pentagon Center for Excellence for Psychological Health and 
Traumatic Brain Injury, although they estimated that 360,000 
soldiers may have suffered at least a mild traumatic brain 
injury while serving in Iraq and Afghanistan, and aren't 
getting any help.
    But we have to make sure the help is beyond that of just 
providing some counseling and some medical treatment while 
they're in a theater of combat or while they return. We also 
have to recognize that post-traumatic stress, post-traumatic 
stress disorder, post-combat trauma stress disorder, and combat 
stress reactions are normal reactions to extremely abnormal 
circumstances. We cannot see them as a weakness among any of 
our military. We have to recognize them as sometimes the sad 
part of battle, but we have to work at helping in the long run.
    I know from my own work as a Lieutenant-Commander in the 
Navy Reserve at Bethesda National Naval Medical Center, I see 
these patients firsthand. When I leave here today, I'll soon 
take a flight back to Bethesda to do my bi-monthly drills 
there, and I know once again I'll see these soldiers, sailors, 
airmen, Marines who have the traumas of which we speak. Perhaps 
it will be a soldier, when I see him, he'll have anger in his 
eyes, wanting to leave his branch of service, frightened, 
worried, but not wanting to talk about it.
    He'll avoid getting help and go home to his family, who 
will try and be supportive of him, but over the weeks, as 
nightmares and stress take their toll, does he find himself 
waking up in the middle of the night or early in the morning to 
go on patrol in his neighborhood, we will see someone who may 
turn to drugs or alcohol, or losing his job or losing his 
family.
    Perhaps it will be the soldier that I know who has 
significant damage from an IED going off and taking out a 
significant portion of his frontal lobe, with that his 
executive functions, his ability to manage and reason in his 
own way. If you were just to talk to him, you may not know that 
he has these problems, yet time and time again, so many 
soldiers go home and find themselves with impulsive behavior 
when they are not supervised, and then reaching into the 
medicine cabinet without thinking, grab a handful of drugs, or 
go off to a store and buy some things they shouldn't be buying, 
or get behind the wheel of a car and drive 100 miles an hour 
down the highway, perhaps have an accident, and a police 
officer sees the Purple Heart license plate and lets them off 
the hook.
    We cannot have that for our military. We must make sure 
that we have a justice system that understands their problems 
and not coddles them, but works with them. They are surrounded 
by mentors who understand service men and women and the 
strength it takes to overcome this battle within. We have to 
understand also that we simply do not have the personnel to 
handle the severity and the volume. We don't have enough 
trained psychologists, social workers, psychiatrists, or mental 
health personnel trained in combat and veterans' mental health. 
We have a lot of needs out here, and one of those places it 
needs to start is here in the veterans court.
    Again, Senator, thank you so much for having this hearing. 
I look forward to hearing the testimony and to enlighten this 
community with what we need to be doing to help make sure our 
soldiers are welcomed home.
    Thank you.
    Senator Specter. Thank you very much, Representative 
Murphy.
    We now turn to our first witness. It is the remarkable 
stature of the veterans court that we have a justice on the 
Supreme Court of Pennsylvania who is with us here today. 
Justice Seamus McCaffery was elected to that position in 2007. 
He had previously served on the Superior Court, the next level 
of appellate courts, he had been on the municipal court and he 
became famous in a curious way: he presided on the so-called 
Eagles court, where there was a special court set up at the 
Veterans Stadium to handle unruly Eagles fans. So he had a very 
large backlog that he had to work with at that time. On snowy 
days, Eagles fans were notorious for pelting the players. Prior 
to his judicial experience, he had been a Philadelphia police 
officer from 1970 to 1989.
    He's a graduate of the undergrad program at LaSalle, has a 
Temple law degree. He was a Marine during Vietnam, and retired 
as a Colonel in the U.S. Air Force Reserve after 40 year of 
service. With all of the military talk and veteran talk, I 
think it not inappropriate to comment that I am a veteran, 
having been in the United States Air Force, stateside, during 
the Korean War.
    Justice McCaffery, it's an honor to have you here, and we 
look forward to your testimony.

  STATEMENT OF HON. SEAMUS MCCAFFERY, SUPREME COURT JUSTICE, 
   SUPREME COURT OF PENNSYLVANIA, PHILADELPHIA, PENNSYLVANIA

    Justice McCaffery. Thank you, Senator. Representative 
Altmire, Representative Murphy, thank you again so much for 
conducting these hearings.
    Senator, you and I go back well over 30 years and I 
remember, I know firsthand your commitment toward the veterans' 
community. That's why, when I received the call, would I be 
willing to come to Pittsburgh today for your hearing, I jumped 
at the opportunity.
    Let me start out by saying that I am an immigrant. I was 
born in Belfast, Northern Ireland. There are no veterans in my 
family. In 1968, I joined the United States Marine Corps and I 
traveled to Parris Island, South Carolina, where I was put into 
a platoon. It was called the Pittsburgh platoon. There were 80-
some young men that were sworn in at Forbes Field, right here 
in downtown Pittsburgh. It was the first time, quite frankly, I 
ever heard the word ``youths''.
    I was, at that point in my life, struck by the incredible 
amount of patriotism coming out of Southwestern Pennsylvania, 
and that's why, Representative Murphy, it does not strike me as 
unusual to find out that Allegheny County was the number-one 
county in Pennsylvania for veterans, surrounding the--
Washington----
    Having joined up in 1968, Senator, I spent 40 years in the 
military, starting as a private, and retired last year as a 
full Colonel. During that span of time, I was honored to meet 
World War II veterans who were coming to the end of their 
careers back in the late 1960's, Korean War veterans, Vietnam 
veterans, all the way up, and including, the current conflicts: 
Desert Storm, Desert Shield. I was personally activated during 
9/11 and sent to--Air Combat Commend headquarters in Langley, 
Virginia, where I had the opportunity and privilege of serving 
with veterans from both Iraq and Afghanistan.
    The common thread throughout my 40 years of service was 
seeing so many of these veterans who suffered. They suffered 
that hidden wound, if you will, what we refer to now as post-
traumatic stress disorder. The World War II veterans called it 
shell shock, but we now know it's post-traumatic stress 
disorder.
    As a Philadelphia police officer, so many times I dealt 
with people with mental illness, and so many of those people 
who suffered from mental illness were veterans. We would see 
them self-medicating on the street corners, buying drugs, 
alcohol, and they got into domestic violence cases, suffering, 
again, from post-traumatic stress disorder, the hidden wound 
that we see so frequently.
    We have a Supreme Court Chief Justice right now, by the 
name of Ronald G. Castille. I'm sure everybody knows that the 
Chief Justice lost his leg on his 23rd birthday as a platoon 
commander in Vietnam. Chief Justice Castille is an ardent 
supporter of this concept of supporting our veterans. The Chief 
Justice and my colleagues on the Supreme Court are strongly in 
support of this.
    One of the things that I learned, both throughout my 
campaigns across Pennsylvania, as well as my time as a trial 
judge, was that our veterans who do suffer end up in the 
courtrooms, and we quite frankly had nothing we could do with 
them because, Senator, Congressmen, just like everyone else in 
this country right now at both the Federal and State levels, 
our court systems are suffering--and I say ``suffering''--from 
budgetary issues.
    Every time we assign a judge to these various programs, it 
takes away court staff, court personnel, probation/parole 
officers, and judges from their normal duties. Some court 
programs, some court jurisdictions are requesting to open up 
so-called specialty, or problem-solving, courts. Through the 
leadership of our State Senator, Jane Orie, as well as Senator 
Costa, Senator Greenleaf, and Senator John Rafferty, they have 
created in Pennsylvania legislation that allows the creation of 
problem-solving courts, specialty courts.
    Upon my election to the Supreme Court over 2 years ago, I 
approached the Chief Justice and suggested that we open up our 
own State-wide courts dealing with those, and I was asked to go 
to Washington, DC to meet with the Veterans Administration 
leadership. Because Pennsylvania has a unified judiciary, we 
were able to put together programs throughout Pennsylvania to 
help our veteran community.
    We started here in Pennsylvania with Judge John Zottola, 
sitting to my left, an outstanding jurist, and have an 
outstanding program. We moved on to Scranton. We now have it in 
Philadelphia. But one of the things that we're trying to do 
right now is make this happen throughout Pennsylvania because 
our veterans do need the kind of support that we are willing to 
give them, and with your help and with your support, Senator, I 
know we can make this State and this great country of ours show 
we care about our veterans.
    And as an aside, my last assignment was at the Department 
of Homeland Security. I worked with the Pennsylvania National 
Guard. Those Guardsmen and women come back home from the 
fighting, and oftentimes they're putting on their police 
uniforms, their firefighter uniforms, they have truck driver 
jobs, whatever, and that money--they're back to work and 
they're not afforded the opportunity to really get back to 
society, and we see them so often in our courts as the result 
of, again, self-medication, as well as an extension of 
alcoholism.
    So again, I want to thank you, and I'm here to answer any 
questions you may have.
    Again, Senator, Congressmen, thank you so much for your 
help.
    Senator Specter. Thank you very much, Justice McCaffery.
    We now turn to Allegheny County Common Pleas Judge John 
Zottola, who is in the Criminal Division of the Court of Common 
Pleas. He serves currently as the supervisor of the Allegheny 
County Mental Health Board, and also the county's first 
veterans court.
    Judge Zottola was an Assistant DA from 1982 to 1989. He 
took that position shortly after graduation, graduating from 
the University of Pittsburgh Law School.
    Thank you for the outstanding work you're doing, Judge 
Zottola, and the floor is yours.

 STATEMENT OF HON. JOHN A. ZOTTOLA, JUDGE, CRIMINAL DIVISION, 
    COURT OF COMMON PLEAS OF ALLEGHENY COUNTY, PITTSBURGH, 
                          PENNSYLVANIA

    Judge Zottola. Thank you, Senator. Senator Specter, 
Representative Altmire, Representative Murphy, thank you for 
the opportunity to appear before this panel. My name is John A. 
Zottola. I'm a judge in the Criminal Division of the Court of 
Common Pleas of Allegheny County.
    I've been supervising judge of our county's mental health 
treatment court since March of 2006. Recently I was assigned to 
supervise our newly created veterans court. The court was 
created based on a recognition of the tremendous sacrifices 
made by our veterans for the safety, freedom, and liberties of 
their fellow citizens and the special circumstances that may 
exist when a veteran finds himself or herself in the midst of 
the criminal justice system.
    These special circumstances combined with successes that 
are achieved in a treatment course, such as mental health, 
drug, and DUI--establishing an avenue to deal with the 
veteran's issues in the criminal justice system, while being 
mindful of the need for public safety.
    A joint task force was co-chaired by Justice Seamus 
McCaffery and VISN Director Michael Moreland to address the 
needs of Pennsylvania veterans within the criminal justice 
system. Its inaugural meeting was held on February 3, 2010 in 
Harrisburg, Pennsylvania. The task force--on the need to divert 
and treat, with regard to public safety, those veterans at 
various stages of the criminal justice system was agreed upon.
    What they decided to do, was to use the highly successful 
sequential intercept model that is successful in mental health 
courts, and that is to determine where in the criminal justice 
system can you successfully divert someone, with the eye toward 
public safety. That's been developed with respect to veterans 
court.
    My experience has been mostly with mental health court. In 
our mental health court, it diverts at the third stage, and 
that is at the Court of Common Pleas. It's different than 
traditional judging. In traditional judging, you see almost a 
vertical approach toward judging, where appearing before the 
court is at the top of the pyramid.
    With respect to mental health courts and treatment courts, 
it's more of a horizontal approach, where there is a team 
approach where the judge is, if necessary, a speed bump in the 
decisionmaking process. The team approach takes the presence of 
the District Attorney, the Public Defender, Human Services 
individuals, probation officers, and the team decides what is 
the best treatment for this particular individual.
    We have with us here today one of the members of our team, 
and that is Deb Barnison-Lange, who is from the Allegheny 
County District Attorney's Office, and she's sitting here 
behind me. We found that our team approach has been very 
successful. Mental health court, as well as veterans court, we 
found is going to be the right thing to do because the catch-
and-release system, where they keep catching individuals that 
find themselves in the criminal justice system, release them, 
only to be re-arrested and re-incarcerated, isn't working. So 
diverting them in treatment is, one, the right thing to do.
    The Rand Corporation was commissioned to do a study on our 
county's mental health court. Over a 2-year period of time, 
they found that the mental health court, by diverting as 
opposed to re-incarcerating, saved Allegheny County $3.6 
million over that 2-year period of time, so it's the right 
thing to do and it saves money.
    The third point is that our recidivism rate internally is 
determined to be about 15 percent, so it's the right thing to 
do, it saves money, and it works. We hope to be able to model 
our veterans court--and we modeled our veterans court--after 
the mental health court, but we need resources to be able to 
handle extra prosecutors, extra judges, as well as extra Public 
Defenders, probation officers, and that really is a critical 
and crucial need, as well as the need to have an individual 
that can coordinate the resources that are available, and each 
of the other courts have provided these resources for veterans.
    Like Justice McCaffery, I am here to answer any question 
that you may have. I think what is an important piece that 
we're finding in mental health court, as well as in veterans 
court, is going to be the peer mentor aspect. The ability to 
have someone in the courtroom that has been there, done that, 
and can be able to, if necessary, coerce a veteran having to do 
what they need to do in terms of treatment, in terms of taking 
their medication, to be there to support the veteran, that's an 
important component and that's something that needs to be 
recognized.
    A very important ally that we have in veterans court is 
going to be the VA, and the VA has been very willing and very 
agreeable in being a partner with the courts. It's the first 
time that those two entities have really worked together, and I 
see that that will be a very important partnership, an 
effective partnership, for our veterans.
    Thank you very much.
    Senator Specter. Thank you very much for that, Judge 
Zottola.
    Our next witness is Mr. Michael Moreland, Network Director 
of VA Healthcare VISN 4. He has been with the Department of 
Veterans Affairs since 1980, the illustrious date. That's when 
I was elected to the U.S. Senate. He had very, very extensive 
service. He has, in his current capacity, the health care 
system for about 1.5 million members throughout Pennsylvania 
and Delaware. It's comprised of 10 centers, 45 community-based 
outpatient clinics, which gives him quite a reach.
    He received his Bachelor of Arts degree from the University 
of Maryland in 1978, and his master's degree in Social Work 
also from the University of Maryland in 1980.
    What we'd like you to describe for us today, Mr. Moreland, 
is exactly what you see the Veterans Administration undertaking 
how that fits in with those veterans who are called in to 
criminal court, and how the so-called veterans courts integrate 
with your line of work.

STATEMENT OF MICHAEL E. MORELAND, NETWORK DIRECTOR OF VETERANS 
  INTEGRATED SERVICE NETWORK 4, U.S. VETERANS ADMINISTRATION, 
                    PITTSBURGH, PENNSYLVANIA

    Mr. Moreland. Yes, sir. I will do that. Thank you, Senator 
Specter, Representative Altmire, Representative Murphy, for 
this opportunity to talk to you a little bit about the things 
that are going on in the VA. To respond to your question, sir, 
as you mentioned, the part of the VA that I oversee has eight 
hospitals in Pennsylvania, so I'll keep myself to Pennsylvania 
today.
    But it fits into the overall context of what the VA is 
doing because, No. 1, we're trying to reach out and find 
veterans. There are veterans out there, unbelievably, that 
still don't know that they have service and eligibility with 
the VA.
    So we're out, reaching out to veterans everywhere we can go 
to find them, and one of the places that we've been very 
honored to work with Justice McCaffery and Judge Zottola here 
in Pittsburgh, and of course, Judge Marsha Nefeld in 
Philadelphia has done a fabulous job as well, and so we're 
reaching into the court systems to find veterans that need our 
services, too. So it fits into the context of the VA because, 
under the public law, we're supposed to be out there talking to 
veterans in the court, and we're doing that.
    So in the hospitals that we had in Pennsylvania, we had a 
Veterans Justice Outreach Coordinator at each one of our 
hospitals. They are talking to the court systems in their local 
community, making sure they're connecting with the court so 
that the court knows about our services.
    And in the veterans' court systems, like in Allegheny 
County, and Philadelphia, and Lackawanna up near Scranton, we 
actually have VA staff who are attending the court with the 
court, talking to the veteran in the court and making sure that 
the veteran has an opportunity to find out about VA services. 
Again, Senator Specter, we've found veterans going into the 
court system who may be facing a DUI, may be facing domestic 
violence. They've never been to the VA, don't know they have VA 
eligibility.
    By us reaching out into the court system, we've been able 
to find those veterans, connect them with the VA. Sometimes 
they find out that they have eligibility for financial 
assistance, sometimes they find out that they're eligible for 
health care, and it may include medical, surgical, and 
psychiatry care, to include substance abuse and PTSD treatment.
    So I'm very pleased to have had the opportunity to serve 
with Justice McCaffery on the State-wide task force and the 
wonderful work we've been able to do to hold people together, 
to talk about this very important issue. We are starting to 
already see veterans come into the VA that otherwise I don't 
think they would have.
    Senator Specter. Thank you very much for your testimony, 
Mr. Moreland.
    We turn now Mr. Al Mercer, executive director of the 
Veterans Leadership Program of Western Pennsylvania. He's had 
that position since June of 2007. The VLP provides housing, 
employment, and other supportive services to veterans and their 
immediate families.
    Mr. Mercer served 22 years in the Navy as an enlisted man, 
a commissioned officer, and did two tours at the Pentagon. He 
has a master's degree in Health Management Services and a 
bachelor's degree in Health Care Services.
    We appreciate your being here, Mr. Mercer, and we look 
forward to the testimony.

STATEMENT OF AL MERCER, EXECUTIVE DIRECTOR, VETERANS LEADERSHIP 
   PROGRAM OF WESTERN PENNSYLVANIA, PITTSBURGH, PENNSYLVANIA

    Mr. Mercer. Thank you, Senator. Good morning. My name is Al 
Mercer. I'm executive director of the Veterans Leadership 
Program of Western Pennsylvania. We have proudly served those 
who have served and sacrificed on behalf of us all.
    Senator Specter. Senator Strom Thurmond, who used to 
preside at these hearings, under these circumstances, would say 
``pull the machine a little closer''.
    [Laughter.]
    Mr. Mercer. Thank you, Senator.
    We have proudly served those who have served and sacrificed 
for us all since 1982. Thank you for the opportunity to offer 
testimony on the very important topic of veterans court. I 
would like to thank State Representative Don Walko, Judge Mike 
McCarthy, Judge John Zottola, Mr. Moreland, and the VLP board 
of directors for their leadership in bringing this issue 
forward locally.
    My special thanks goes to my staff at VLP for stepping out 
in support of veterans encountering the criminal justice 
system. The VLP staff operates on the front lines every day in 
this community, serving veterans in crisis and embracing our 
commitment to support all veterans with unwavering dedication, 
no matter their situation or circumstances. This thank-you is 
also extended to our 20 volunteer veterans who have stepped 
forward to help their comrades.
    While it is clear that the overwhelming majority of 
veterans are law-abiding citizens who have not run afoul of the 
law, there are many factors that contribute to the need for a 
veterans court.
    First, of the 300,000 veterans residing in Southwestern, 
Pennsylvania, this region has one of the highest per-capita 
concentrations of veterans in the United States.
    Second, from the 67 counties in all of Pennsylvania, 
Allegheny County is ranked No. 1 in the State, with over 3,100 
Iraqi and Afghanistan veterans, and as ranked in the Navy, 45th 
in the country out of 3,218 counties. That is extraordinary, 
given there is no major military installation in this region.
    Third, an even more rapidly changing economy is present 
today than there was when the Veterans Leadership Program was 
founded in 1982 when our steel mills were closing.
    Fourth, the unemployment rate for Iraq and Afghanistan 
veterans is 21 percent higher than the rate for all Americans.
    Fifth, misplaced stereotypes for veterans' fitness for 
employment have been reported and are on an increase.
    Sixth, veterans represent a disproportionate share of this 
country's homeless population. At VLP, our housing programs 
remain full. Our waiting list is as long as it has ever been, 
and we are the largest provider of subsidized housing to 
homeless veterans in the region.
    Seventh, more frequent and longer deployments by members of 
the National Guard and Reserve are now the norm. To put this in 
some perspective, the Pennsylvania National Guard is 
experiencing its largest deployment since World War II, and the 
Army reported in January 2010 that over 13,000 soldiers had now 
spent three to four cumulative years at war. That is longer 
than the entire duration of the Korean War.
    Eighth, the tremendous and all-too-familiar readjustment, 
reintegration, and post-deployment mental health problems faced 
by 20 to 50 percent of the nearly two million military 
personnel deployed present this community, and our country, 
with extraordinary challenges for years and decades to come.
    Finally, regarding the all-too-often forgotten families of 
those who serve, wives of soldiers sent to war suffer 
significantly higher rates of mental health issues than those 
whose husbands stay home, up to 24 percent higher rates of 
depression. It is clear that when a service member deploys, the 
entire family deploys with them and they face their own unique 
challenges.
    In summary, it is clear to me that unemployment, 
homelessness, and incarceration increase the risk of each 
other, and are exacerbated by these other factors.
    Veterans court can help. With a focus on tempered justice, 
treatment and guided rehabilitation versus punishment, veterans 
court offers real opportunities to stop a downward spiral for 
many veterans and their families. Veterans court is modeled 
after successful alternative sentencing and jail diversion 
programs, like Allegheny County's mental health court, that 
dramatically reduces recidivism and saves money.
    The Rand study that Judge Zottola referred to points to a 
key ingredient in implementing a success veterans court 
program. It must, in my view, be court-directed and community-
based. Only an integrated, coordinated, multi-system 
stakeholder approach with clarity of purpose and unity of 
effort that places the veteran defendant at the center will be 
able weave a safety net that ensures that no veteran slips 
through.
    I am confident that this approach can actually be extended 
to a preventive model that reaches those at risk before they 
encounter the criminal justice system. While there have been 
discussions on veterans court in Allegheny County for some 
time, a concerted effort began in January 2009 to get things 
moving. Just 10 months later, on November 10, 2009--which, by 
the way, was the Marine Corps birthday and the day before 
Veterans Day--the first veterans court was held in Allegheny 
County.
    The Veterans Leadership Program provides volunteer mentors. 
Mentors are another key ingredient in a successful veterans 
court program. They act as coaches, advocates, and role models 
to guide and support the veteran offender. Mentors listen to 
concerns and make general suggestions to the system to 
determine the defendant's needs. Veterans will talk to other 
veterans; that bond breaks down barriers.
    I understand there is opposition to this concept, but I 
believe veterans do deserve special treatment for their 
service. The evidence suggests that diverting eligible veterans 
from the criminal justice system and providing intensive, 
integrated, court-directed community-based treatments offers 
far more hope in improving the lives of individual offenders, 
their families, and the welfare of the larger community. 
Veterans court is not a get-out-of-jail-free card, it is an 
intensely supervised program of treatment and rehabilitation.
    VLP is representative of the many community-based 
organizations throughout the country that serve our Nation's 
heroes and their families. Sadly, we are all experienced and 
witnessing firsthand every day the tremendous challenges and 
struggles faced by those who have served and sacrificed on 
behalf of us all.
    Veterans court is an opportunity to give our heroes a 
chance to be safe, to recover, and to live their lives with 
respect, dignity and peace. We owe them that opportunity, and I 
urge you to support legislation to help create veterans courts 
across the country. We owe our veterans nothing less.
    Thank you again for the opportunity to come down and 
testify.
    Senator Specter. Thank you, Mr. Mercer.
    Our final witness is Mr. Michael Danny, a 46-year-old 
veteran who served in the Marines for 4 years. He currently 
works as a roofer. According to the information provided, he 
began drinking when he was a Marine and has had a problem with 
alcohol. He has a DUI, driving under the influence, conviction. 
He was involved in a series of domestic incidents. He was 
referred to the veterans court. Since being referred to the 
court, he's had a clean record and has stopped drinking. He has 
had no further problems on the domestic relations side.
    Mr. Danny, thank you for coming and sharing your 
experiences with us. I have made a couple of brief comments 
about your record, with your permission, but we would like to 
hear from you more about your own personal experiences as a 
Marine, what kind of problems that caused you which originated 
from having that type of duty, and what happened with respect 
to drinking and what happened with respect to charges of 
domestic abuse, and how you've dealt with that in the veterans 
court and how you've handled it.
    So, I look forward to the testimony.

 STATEMENT OF MICHAEL DANNY, VETERAN PARTICIPANT, PITTSBURGH, 
                          PENNSYLVANIA

    Mr. Danny. Thank you, Senator. I was in the Marines from 
1984 to 1987. I was in the Fleet Marine Force overseas, Med 
cruises, twice. This is kind of hard for me. I don't have any 
papers here or anything. But I think this program is----
    Senator Specter. Did you develop a drinking habit in the 
service?
    Mr. Danny. Yes. Yes, I did. Actually, I was young. That's 
basically when I started drinking. I'm not blaming the Marine 
Corps for my habit.
    Senator Specter. And when you left the Marines, did the 
drinking problem persist?
    Mr. Danny. Yes.
    Senator Specter. According to the information we have, you 
had certain problems domestic relation-wise. To the extent you 
care to, tell me about that as to the nature of your problem 
which you have overcome. We'd be appreciative.
    Mr. Danny. I was in court. I was charged with aggravated 
assault and it was alcohol related. I had an option to go 
through the veterans court. I personally think that it would be 
good for the veterans. I mean, they've done a lot for us. At 
least you could do that for them. It gives them another option, 
other than just going to jail.
    Senator Specter. You say other options other than just 
going to jail. What kind of options do you have?
    Mr. Danny. To actually get help with my problem of alcohol 
through the VA.
    Senator Specter. What did they do, specifically?
    Mr. Danny. A lot of classes. Education, in that respect, 
how alcohol relates to you and your family.
    Senator Specter. Have you been able to lick your drinking 
problem?
    Mr. Danny. Without a doubt. It doesn't even bother me.
    Senator Specter. I don't understand.
    Mr. Danny. Alcohol--my using alcohol, doesn't bother me at 
all.
    Senator Specter. You haven't used it since how long?
    Mr. Danny. It's been since November.
    Senator Specter. Uh-huh. Do you think you're over the hump?
    Mr. Danny. I hope so. I haven't given it another thought.
    Senator Specter. Uh-huh. Well, good for you.
    How about with respect to the domestic issues?
    Mr. Danny. My wife's very happy--she's sitting right behind 
me--as far as I understand.
    Senator Specter. May the record show that the beautiful 
young woman is nodding in the affirmative.
    What's that on your tee shirt?
    Mrs. Danny. Gateway. Gateway Basketball.
    Senator Specter. OK. Gateway Basketball. I just want to be 
sure I've identified the right woman.
    [Laughter.]
    Senator Specter. Well, thank you very much for sharing 
those experiences with us.
    Judge Zottola. Senator, if I may add to Michael's 
testimony, his wife, who is sitting in the first row next to 
the prosecutor, Deb Barnison-Lange, did call the prosecutor. In 
the case of the prosecutor, she thought this would be the best 
thing for her husband. The smile that was on her face in the 
back of the courtroom the first day that Michael would be the 
first individual in mental health court--or mental health 
veterans court--entered the court, it was just--it was just 
beaming. I talked with her this morning. Everything has been 
going well.
    I asked her how she's doing, not in Michael's presence, and 
she's quite candid that he's doing well. And a little bit of an 
aside. Michael is a roofer, and given the recent snows that 
we've had, he's been very, very busy. So he took the day off 
from work today, when he's not being paid.
    Michael is due in veterans court on Wednesday for a review 
as to his progress. He said to me, ``Judge, do I have to come 
in on Wednesday? '' I said, ``No, Michael. I'm seeing that 
you're doing well here today. You go to work on Wednesday. You 
have to put food on your family's table, that's more 
important.'' So that's kind of a different approach.
    In a traditional approach, we might have said, ``Michael, 
you've got a court date, you've got to be here''. Today, I see 
he's doing well. There's no reason for me to interfere with his 
life any further at this point, other than till his next review 
hearing. I said, no, you should be able to go to work, you 
should go to work. He's our first in a very successful veterans 
court story.
    Senator Specter. I want to thank you for coming in and 
sacrificing your day's work here. It looks like you just made 
it up.
    Mr. Danny. Thank you, sir.
    Senator Specter. So--like Judge Zottola.
    We will now proceed with a round of questions with each of 
us here on the panel taking 5 minutes.
    May I begin with you, Justice McCaffery.
    Justice McCaffery. Yes, sir.
    Senator Specter. There has been a complaint made about 
undue favoritism for veterans, that it is excessive, it's not 
something that ought to be given to veterans over other people. 
How would you respond to that?
    Justice McCaffery. Well, Senator, as I mentioned earlier in 
my opening, this is not special treatment. This is a 
continuation of treatment of a wound. We see people die in 
action, we see people lose limbs in action, but what we don't 
see is the mental impact, the actual cognitive impairment, the 
pain and stress that they're under. We feel personally that 
they deserve medical treatment because it's an illness. No 
matter what anyone says, it is an illness.
    When an individual is brought into the veterans court 
program, unlike the standard court programs where they are 
basically represented by the public defender or a defense 
attorney and they are prosecuted and they end up getting a 
criminal record for whatever, in this particular concept the 
Veterans Administration steps up to the plate.
    Mr. Moreland's folks have been absolutely magnificent in 
all the work. The VA is in the room. The VA representatives are 
there to identify those people to give them the type of 
treatment that we at the State level do not have. By that, I 
mean the Department of Public welfare--they are overburdened in 
and of itself.
    When we now have the opportunity to bring in a Federal 
asset, the Veterans Administration, with their hospitals and 
all the other benefit programs that come along with it and 
their staff members to help out that veteran, we are 
essentially, as Judge Zottola put it, taking them out through 
that sequential intercept model, getting them the treatment 
that they need. And by the way, it's not just mental illness 
treatment. If they're homeless, we're getting them housing. The 
Veterans Administration provides housing, medical, physical, 
job training.
    Just last week, the veterans court coordinator for 
Philadelphia County, John Moskowitz, had a meeting with the 
members of the Philadelphia Bar Association, their veteran 
attorneys, to also offer their services, for example, if 
veterans have problems with their mortgages, on the sale side, 
this is just the court's way, our way, of giving back to these 
men and women who suffered as a result--as a direct result--of 
their service to our Nation. So it's not like they're getting 
any special treatment. They are getting special consideration 
because of a service-related injury, which I feel personally is 
something that they deserve, and we as a State, we as a 
community, should give them.
    Senator Specter. Thank you, Justice McCaffery. That is a 
brilliant reply to that issue.
    Judge Zottola, let me pick up on the issue of the kinds of 
offenses that the court handles. Up till now, as I understand 
it, they've been handling lesser offenses, minor kinds. The 
issue has arisen as to whether the veterans courts ought to 
handle violent crimes. Having been very deeply involved with 
this, along with the mental health issues, a related field, 
what's your sense as to how far the jurisdiction of the 
veterans court ought to go with respect to the seriousness of 
the offense?
    Judge Zottola. In the team approach, the treatment court 
approach to solving these problems, the District Attorney is a 
very important part. They essentially act as the gatekeeper 
because they have to be a willing partner here. Their duty is 
to be mindful of protecting the public.
    What we've been able to do with our mental health court, 
and what we hope to do with veterans court, is expand the type 
of crimes that we can have that would be eligible for this 
court. As we've done so and the District Attorney has seen the 
successes, they've been more and more willing to go from adding 
just misdemeanors to misdemeanors and felonies. We now have 
burglaries and arsons in our mental health court.
    Senator Specter. You have arsons?
    Judge Zottola. Yes.
    Senator Specter. That's pretty serious, I guess.
    Judge Zottola. Yes, sir.
    Senator Specter. How about robbery?
    Judge Zottola. We've had some robbery cases in there. There 
are robberies, and there are other robberies. A robbery where 
someone does it at gunpoint, it's going to be more problematic. 
We take the approach in mental health court, and that's what 
we'll take in veterans court, is that it depends. It really 
depends on the particular circumstance of the individual. So I 
see expanding in veterans court as we have, with respect to 
mental health court, into more and more serious cases. There 
are some that will never be eligible.
    There are some cases that the person is just too dangerous 
and the circumstances are too dangerous. We attempt to address 
that on a case-by-case basis. There are no hard-and-fast rules 
precluding many cases. I can see, for example, if someone is 
charged with homicide, I can see that those are the type of 
cases where public safety is just going to--so you cannot put 
that person into a veterans court situation because the charge 
is just far too serious.
    Senator Specter. Even involuntary manslaughter?
    Judge Zottola. I think, depending on the circumstances, 
given the forward-looking position our District Attorney has 
taken, they would sit at the table and talk about it. They 
clearly would.
    Senator Specter. More volatile hot-blood killings?
    Judge Zottola. They would sit at the table and talk about 
it. I can't say for certain, Senator, whether or not--because 
if they object, sir, I think the problem is going to be that 
the court will then deteriorate, because you need them as the 
gatekeeper, to be willing to accept certain cases into the 
system.
    Senator Specter. This is just a little shop-talk between 
two ex-Assistant DAs, you and me, Judge Zottola.
    Judge Zottola. Yes, sir.
    Senator Specter. That's why we really have interesting work 
to do, not all this administration, right to trial.
    The red light is on. Let me yield now to Representative 
Altmire.
    Representative Altmire. I want to thank all the witnesses 
for your compelling testimony, and especially Mr. Danny. It is 
not easy, to come with the cameras rolling, to tell your story 
in a setting like this. We truly appreciate your service to the 
country and the fact that you took the time from your day to be 
here today.
    Mr. Danny. Actually, I'm honored, if it represents all the 
veterans.
    Representative Altmire. Well, it made a big difference to 
have you here. Thank you.
    I wanted to ask Mr. Moreland in particular, given your 
experience, do you believe, since your territory covers 
multiple States, that this is the type of program that would 
experience the same type of success in other States?
    Mr. Moreland. The success of veterans court really depends 
on being able to establish a partnership. Justice McCaffery and 
Judge Zottola and Judge Nefeld out in Philly, it's those kinds 
of personal relationships that really lead to success in this 
area. So, there are other States and other individual courts 
that have been having success. I think the really interesting 
thing about Pennsylvania is it's truly a State-wide effort. 
We're very successful in doing that. So, having people like 
Veterans Leadership, Mr. Mercer, and the courts work with us as 
partners has been a great part of the success.
    Representative Altmire. And Mr. Moreland, could you comment 
on how veterans are better served in this program locally 
versus the alternatives of the normal court system, where they 
would have a criminal record and go through that process?
    Mr. Moreland. Well, I think, as mentioned, one of the real 
benefits we have is that the VA has a very comprehensive 
medical, surgical and psychiatry treatment program, so allowing 
the veteran to access the benefits that they've already earned 
and already deserve is a piece of this program that I find so 
exciting, because there are those veterans sitting in the court 
system, and if they have to rely on the court's resources, 
they're sharing those resources with everyone else in the court 
system. This allows them to share the resources with the other 
veterans. Our services really are very, very good in this 
regard, so I'm real pleased about that.
    Representative Altmire. Mr. Mercer, your organization, of 
course, covers services for veterans of all generations, but I 
know you have particular expertise in your organization with 
Vietnam veterans. I wonder if you could comment on the 
experiences and the lessons that were learned with the return 
of the Vietnam veterans, and perhaps what we've learned with 
the Iraq and Afghanistan veterans, and how this system of court 
would have made a difference in the Vietnam generation and how 
we can apply those lessons moving forward.
    Mr. Mercer. I think the fact that a majority of our clients 
are Vietnam-era veterans says a lot. Our housing programs--we 
have over 100 participants in housing programs, and many of 
them are Vietnam--most of them are Vietnam-era veterans. Our 
employment programs are all full as well, and most of them are 
Vietnam-era veterans.
    I'm afraid that we're going to learn the same lessons over 
again the hard way and not take care of these veterans now when 
we can, before they become repeat visitors to our program. 
We've had veterans in our program for 20 years. I would love to 
put a sign up on our door that we've accomplished our mission 
and now we're done, that there are no homeless veterans, that 
veterans are employed, that veterans are not in a revolving 
door down at the Allegheny County jail, where the recidivism 
rate is over 60 percent. That's the goal, is to end that 
revolving door.
    Representative Altmire. Lastly, Judge Zottola, I wonder if 
you could comment, following up on Senator Specter's question 
to Justice McCaffery, on the concern that's been expressed 
about this being a different standard of justice somehow for 
veterans. Given the overall context with the courts, which you 
of course see every day, what is your view of that criticism?
    Judge Zottola. Well, I think that the circumstances that 
the veterans find themselves in, and similarly to people with 
mental health and people that come into our drug court, they 
have an extra factor that's involved in their situation that 
may not be involved in many other people who find themselves in 
the criminal justice system. We are taking into consideration 
that circumstance, this particular trait, because you are a 
veteran. You are a veteran with post-traumatic stress. We are 
handling that aspect of how you found yourself in the criminal 
justice system.
    For those who say that this is a special treatment, it is 
special treatment in that it is more difficult to be a veteran 
in veterans court, more difficult to be a mental health person 
in mental health court, because you're held more accountable. 
Rather than being seen by a probation officer once a month, you 
may have to come to court every other week to make sure that 
they're monitoring your particular situation. So for someone to 
say it's an easier time on probation, that's incorrect. It's 
actually a more difficult time on probation for the person in 
mental health and veterans court.
    Representative Altmire. Thank you.
    Thank you, Senator Specter.
    Senator Specter. Thank you, Representative Altmire.
    Representative Altmire. Senator.
    Senator Specter. Representative Murphy.
    Representative Murphy. Thank you, Senator.
    Just a few things to start off with. Justice McCaffery, how 
many people are we talking about, potentially, that we may need 
to serve in the Commonwealth that may have problems with the 
judicial system?
    Justice McCaffery. Well, right now, Congressman, we're 
looking at two component parts. One, again, is what's called 
the intercept model, which could vary depending on the county, 
of course. So as Allegheny County is No. 1, Philadelphia two, 
Montgomery three, it all depends on the number of arrests. I 
don't have the exact data with me of those individuals.
    But there's a second component, Senator, which is the re-
entry component, where we go and we actually identify veterans 
who are already in our State jails--not Federal, but State 
jails--and we're trying to identify those who suffer from PTSD. 
Those members--I believe Secretary Beard provided our State-
wide task force where we're trying to identify them, get them 
out, and get them the treatment that they need.
    Representative Murphy. We're talking about thousands, 
though?
    Justice McCaffery. Yes.
    Representative Murphy. Thousands of veterans, et cetera.
    And as this goes through, Mr. Moreland, as we're looking at 
the numbers--and you and Mr. Mercer answer this too--do we have 
enough providers to take care of the needs of this many 
veterans who may have traumatic brain injury, post-traumatic 
stress disorder, and common stress disorders?
    Mr. Moreland. That's always a challenging question. You and 
I have talked about this on a number of occasions. What I would 
say is, today we have sufficient capacity, but that's a 
changing situation. If we find more veterans, they can get 
connected with us. We just had several hundred veterans in the 
Philadelphia VA and in Coastal VA just this weekend, returning 
Iraq and Afghanistan vets, doing their post-deployment 
physicals.
    We were having the Department of Defense and the VA do them 
at the VA hospital so we can better connect with those 
veterans. So as we find those veterans and get into an outreach 
program with the court and the jails, it will be a challenge 
for us to look at that. That's something we'll have to evaluate 
as we move forward.
    Representative Murphy. Mr. Mercer, do you think we have 
enough services, and are they coordinated?
    Mr. Mercer. I believe we're on the ground every day out in 
the community. We're losing about--I believe that we are seeing 
way too many veterans in need of homes, in need of jobs, and in 
need of health care. One of the biggest issues we face, I 
think, is the disparate fiefdoms that exist among the veterans' 
groups, where I believe that we need to work better to get--
there needs to be an integrated, coordinated approach to 
serving our veterans. The more we can do that, the better we'll 
be able to serve them and solve this problem.
    Representative Murphy. Mr. Danny, along those lines, I'm 
wondering, as you left the Marines, as you left your duty as a 
Marine and went into the community and began to experience 
problems, did you slip through the cracks? Have the cracks been 
identified? Were there people out there at the time? Before you 
got involved with the veterans court, were there people out 
there trying to help offer assistance? Did you know your way 
around that network?
    Mr. Danny. Honestly, I had no--I knew where the Veterans 
Affairs--I never reached out. I was always trying to do it 
myself the best I could.
    Representative Murphy. And that didn't work out, did it?
    Mr. Danny. Obviously not.
    Representative Murphy. Yes, sir.
    But let me just--as a person who is a psychologist, and as 
a person who's a public servant, and as a person who's a 
Reservist myself, I admire your courage for speaking out. I 
mean, one of the things that happens in any military unit, 
somebody at some point has to take the lead and stand up and 
say we've got a problem here and identify it. If you don't want 
to identify the problem, it's difficult. I know I once was 
treating a Marine who was a veteran of Operation Desert Storm--
getting out--treatment. He finally came to terms with the 
issue.
    He said, you know, I was trained really well as a Marine. I 
could take my gun apart and put it back together with a 
blindfold on. I could do all sorts of things. I could identify 
the enemy over the horizon, but I could never identify the 
enemy behind my own eyeballs. He came to terms with that, and I 
admire the courage to do that.
    Judge Zottola, one other question. The mentors that we 
assign to work with veterans. Can you give us some idea of what 
their qualifications need to be? Do we have enough for them? 
What do they do? How does this differ from just a parole 
officer?
    Judge Zottola. Well, the mentor component--the Veterans 
Leadership Program through Mr. Mercer is taking the lead in the 
mentor component. The theory behind the mentor is the ability 
to say I've been there, I've done that. I've done it, I 
understand what you're going through. Part of it is an 
education process. We have those type of mentors in mental 
health court because a consumer in that kind of court 
understands what the person is going through.
    We have a series of qualifications that the Veterans 
Leadership Program has prepared for the mentors. Do we have 
enough? Mr. Mercer said this morning we have 20. Just to give 
you numbers, talking about numbers before, we started our 
mental health court in 2001 with 16 people for over 330 clients 
currently in mental health court. So that gives you a sense of 
where the numbers can take off, and I think the mental health 
population is far less than the veterans' population.
    The numbers are both completely staggering, and we need as 
much assistance with mentors--and part of the mentor program 
needs to be the ability to compensate those individuals so that 
it increases their self-worth and increases their value to the 
community, but also recognizes that they're providing valuable 
service to the rest of us.
    Senator Specter. Thank you.
    Justice McCaffery, I know that you might want to expand on 
the previous answer.
    Justice McCaffery. Senator, two things. One, Infinity 
Broadcasting in Southeastern Pennsylvania, through the efforts 
of Mr. Mark Rayfield, has offered public service announcements 
to reach out to the veteran community to cultivate more veteran 
mentors.
    Two, Senator, your comment about violence in the courts--I 
should say, individuals arrested for violent acts. When I was 
at the Veterans Administration in Washington, DC, we had 
Supreme Court justices from around the country, as well as 
judges. The single component that came up of interest was, do 
we bring in people that are arrested for violent acts? As the 
Congressman pointed out, our veterans, our military, are 
trained to be violent. That's part of our job.
    As a result of it, their training comes out when they're 
stressed. We're seeing, as these other judges and justices all 
stress, that you cannot have a veterans court program without 
bringing in individuals for violent acts, because that is a 
very large component of what they're seeing out there in their 
own districts.
    Senator Specter. We have time for another round, but just 3 
minutes for each of us.
    Mr. Mercer, you made a comment about a preventative model. 
What did you have in mind on that?
    Mr. Mercer. Senator, one of the things we're doing at VLP 
as a result of this initiative, we've been asked by the 
Allegheny County jail to come in and present programming to 
inmates in jail now. We've also been asked by an Allegheny 
County--another community--groups to get involved with the 
veterans before they enter the criminal justice system. I think 
that's the key to solving the problem.
    Senator Specter. We'd be interested to know what you intend 
to pursue there. Prevention is certainly a laudable goal.
    Mr. Moreland, I note that you are the head of the VA 
institutions in West Virginia, New Jersey, and Ohio, none of 
which have veterans courts. Are you going to push ahead to see 
if you can get some in those other States?
    Mr. Moreland. Yes, sir. Absolutely. We're meeting with 
different courts in each of those States, getting those plans 
pushed forward. Like I said, with Justice McCaffery, we've had 
such a good partner, that we've been able to push further ahead 
in Pennsylvania more quickly, but we are absolutely working in 
the other States as well.
    Senator Specter. Mr. Danny, what is your evaluation 
generally of the advocacy and care services that you've gotten 
as far as the Veterans Administration?
    Mr. Danny. Very good. As far as this program, my honest 
opinion, I was in a class. I go to the VA one day a week for a 
class. This past week, we sat around a table and we talk about 
our problems. The instructor is very good. I think so, in my 
opinion. There's a guy there that's been in rehab 14 times. I 
was in shock. In my personal opinion about this program, it'll 
work if the individual wants it to work. I'm not saying--that's 
just my personal opinion.
    Senator Specter. Let me ask both Judge Zottola and Justice 
McCaffery the same two-part question in conclusion. That is the 
desirability of having these veterans courts in other 
counties--see fit, depending upon the size of the county and--
--
    And the other question relates to whether there can be a 
sufficient basis for Federal involvement, to have Federal 
courts--have veterans courts within the Federal system.
    Why don't you start, Justice McCaffery.
    Justice McCaffery. I think, as I mentioned, the re-entry 
program concept could work in the Federal system. Obviously a 
Federal court--Federal prisons are, I believe, in my 
understanding, filled with a lot of veterans. They can create 
programs at that level to identify the veterans incarcerated in 
Federal State--I'm sorry, in the Federal prisons and get them 
out.
    As far as Pennsylvania is concerned, there are 17 mental 
health courts, I believe--is that correct--across our State 
right now. Seventeen. I anticipate at least 17 veterans court 
programs.
    But Senator, as I mentioned earlier, for every court 
program that we open, the president judge of each county has to 
come forward and seek, not permission, but ask for the creation 
of the program. What you run into, is they have to take their 
DA, their defender, their judge, and other staff personnel away 
from their day-to-day duties, so that means that the work that 
they were doing is now passed on to others.
    So some counties are reluctant to do so because they're 
stressed out. We need support so that we can go into these 
counties and say we're going to be able to help you out with 
additional prosecutors, defense attorneys, et cetera, et 
cetera. That's the only hindrance that I'm seeing right now. 
The VA can handle just about everything that we're throwing at 
them right now.
    Senator Specter. Judge Zottola.
    Judge Zottola. Senator, I would echo Justice McCaffery's 
sentiments. The beauty of the sequential intercept model is, 
there is a place in that model for every different county. A 
smaller rural county, rather than maybe having a veterans 
court, you have a specialized probation officer to deal with 
veterans issues. Philadelphia is concentrating on a re-entry. 
That's the fourth level of the sequential intercept model. Re-
entry is very important. That can take place in the State, as 
well as the Federal, system. Having to plan for someone, this 
is where you're going to live when you get out, this is what 
you're going to be doing, is extremely important. So I think it 
will work at the Federal, as well as the State, system and in 
different points of that intercept, sir.
    Senator Specter. Representative Altmire.
    Representative Altmire. Justice McCaffery, there's probably 
nobody in Pennsylvania, and maybe in the country, who has more 
of an expertise and level of experience with the specialty 
courts than you do, including the unique Philadelphia Eagles 
court.
    Justice McCaffery. Well, I'm also a Steelers fan now.
    Representative Altmire. That's right. That's right.
    I want to ask, in that context, what you felt with regard 
specifically to veterans courts and the level of 
appropriateness that those courts would apply to veterans in 
cases that we're talking about, specifically the impact on 
recidivism, but also taxpayer dollars and what it means for the 
rest of the court system, which you see every day. When you 
remove these cases from the system, what's the impact on the 
courts generally, and also on taxpayer dollars?
    Justice McCaffery. Congressman, I am a firm believer in 
problem-solving courts. Why? Because it takes so many cases out 
of the mainstream court process. By that I mean, instead of 
having, say, 2,000 cases coming to the various court programs 
in a year, we're down to 800, which makes it more manageable. 
One, we are at a point right now of stretching our prisons, our 
jails, and our support apparatus to the very 9th degree. We can 
no longer continue to keep putting people in jail. It's just 
not cost effective.
    We need to figure out alternative ways to handle it both 
through the mental health area, or gun courts, for example, or 
DUI courts. These are novel approaches that Pennsylvania 
started back in the 1990's. They're working and saving us a lot 
of money. It's so much cheaper to keep people out of jail than 
to put them in jail. We all know that.
    I think that right now, with the problem-solving concept 
that Pennsylvania is embracing, with the help of a lot of other 
groups, we're saving the taxpayers money. Most importantly--and 
Secretary Beard will attest to this--the more people we 
identify in our jails, to get them out and get them into our 
various programs, we're getting them back with families. That's 
an important part of this whole thing, get them back to their 
families.
    The legal community is willing to step up right now and 
help with job training, help them clear up their credit card 
debt, help them clear up their mortgages and give folks a 
really increased feeling of self-worth if you will. It's just a 
way to have self-respect. It's the right thing to do, and it's 
cost effective.
    Representative Altmire. Thank you.
    No further questions.
    Senator Specter. Thank you, Representative Altmire.
    Representative Murphy.
    Representative Murphy. Thank you.
    I just have one quick question. Judge Zottola, I want to 
ask you a couple of word associations, and you tell me how you 
think this is working for the courts. Are the courts softer on 
veterans, tougher on veterans than other courts? What do you 
think?
    Judge Zottola. I think that they--as I've said before, the 
requirements to successfully complete a veterans court program 
are more rigorous than the normal requirements of probation. A 
probation officer might see the probation person once a month, 
we may see a person that's in veterans court twice a month.
    There are specialized mentors, where they assure that they 
call them once a week to make sure you're going to treatment, 
you're taking your meds. They're being watched more than a 
regular person on probation, so I think that it is more 
rigorous for them. So we're not being softer on them, I think 
we're being tougher on them.
    People envision the opposite. They say, oh, boy, you're 
going to be in mental health court, it's a walk in the park for 
you. You're going to be in veterans court, it's a walk in the 
park for you. It's actually the opposite, because they make you 
go through more hoops because they recognize that you have an 
added component that put you in the middle of the criminal 
justice system.
    Representative Murphy. Uh-huh.
    Mr. Danny, what would you say to that? Is the court softer 
on you or are they tougher on you, the mentors and----
    Mr. Danny. Exactly what he said. It's real time-consuming, 
going to all the classes and trying to balance into my week. I 
work like 60 hours a week some weeks. And he's right, it's not 
easy.
    Representative Murphy. Justice McCaffery, you had mentioned 
about our justice system and our jails are full. What's 
cheaper, putting them in jail or having veterans courts? Even 
with all these wrap-around services and coordinated care, it's 
a lot of time and professionals. What's cheaper?
    Justice McCaffery. Well, Congressman, I can tell you that 
from our mental health courts, for example, people with mental 
illness who are sentenced to jail serve far more time in jail 
than people who don't have a mental illness. That's a fact. So, 
therefore, they're spending a longer period of their sentence 
incarcerated. The same thing applies to our veterans. So, it's 
just a more cost-effective way of dealing with it.
    As I said before, recidivism is a very important part to 
take into consideration, all these people who are repeat 
offenders. If these programs are helping them get back on their 
feet so they're not getting re-arrested and re-arrested, if 
they're not going back to the street corners and self-
medicating with street drugs, alcoholism, domestic violence, 
it's a win-win for society.
    Representative Murphy. Thank you.
    Senator, if I can be so bold as to speak for the 
Congressional delegation, which you know well, I don't think 
there's one among us who would not be supportive of this and 
appreciative of the leadership in this. As a person who has 
done internships in prisons, I've worked with many veterans and 
people over the years, and we need special programs like this. 
They're effective, they're cost efficient. Quite frankly, for 
those who fought for our Nation with courage, they should not 
have to fight the system and be discouraged.
    I thank you very much for your time.
    Senator Specter. Thank you, Representative Murphy.
    And concluding comments, Representative Altmire.
    Representative Altmire. No, sir.
    Senator Specter. Any concluding comments, Representative 
Murphy.
    Representative Murphy. No.
    Senator Specter. Well, I thank you gentlemen for coming in 
here today. I believe that this is a very good approach. It 
falls in line with what efforts have been made for three 
decades now on what used to be called pre-indictment probation, 
now called Accelerated Rehabilitative Disposition. There may 
not be many people who can tell you what ARD stands for.
    Just a thimble of history. I had an Assistant DA, Alan 
Davis, who came back after lunch with a voluntary defender in 
1970, and said we've struck a way to move a lot of cases from 
the backlog. The--Judge Sidney Hoffman. You remember Sidney 
Hoffman, Justice McCaffery, on the Superior Court? Judge 
Hoffman came in and said a word. He wore a business suit. He 
brought in individuals who were charged with non-violent 
offenses. The theme was that if they stayed out of trouble for 
a year, their record would be expunged. If they got into 
trouble within a year, they'd face the initial charge and the 
subsequent charge.
    I appeared before the Supreme Court of Pennsylvania in 
chambers, the first time I was ever back there in those lofty 
chambers in the Supreme Court of Pennsylvania, behind the 
fourth floor courtroom. The justices were mad at me at that 
time. I'd taken some appeals from sentences, which--they are 
now. But they thought I was a little too critical of some of 
the Common Pleas judges in Philadelphia, but at any rate, they 
approved the system and became a great success.
    That has been formalized in the Pennsylvania Rules and 
Criminal Procedures as ARD and is now a national model. I think 
that the mental courts are in the same vein, and the courts for 
veterans are the same way. I think you have a national model 
here which ought to be emulated. In looking at the program, I'm 
going to co-sponsor Senate bill 902, which calls for $25 
million over 5 years to develop veterans courts around the 
country and take a look at the issue of Federal court 
jurisdiction. This is an idea of real service. I think 
Representative Murphy puts his finger on the less 
expensiveness, and Representative Altmire on the efficiency of 
where we're heading here. You are a good Exhibit A. Of course, 
there's Exhibit A----
    Well, thank you all for coming in. That concludes our 
hearing.
    [Whereupon, at 11:40 a.m. the hearing was concluded.]
    [Submissions for the record follow.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
